CAPITAL CASE
No. 20-1686
IN THE

Supreme Court of the United States
BOBBY LEE HAMPTON,
Petitioner,
v.
DARREL VANNOY, WARDEN
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE FIRST JUDICIAL DISTRICT COURT OF
CADDO PARISH, LOUISIANA

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Reply Brief for Petitioner contains
2,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
Executed on August 24, 2021.

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

